No. 20-8093

In the Supreme Court of the United States
MARTIN JAMES KIPP, Petitioner,
v.
RON BROOMFIELD, ACTING WARDEN, Respondent.

CERTIFICATE OF SERVICE BY MAIL

I, Randall D. Einhorn, Deputy Attorney General, a member of the Bar of this
Court hereby certify that on July 21, 2021, three copies of the BRIEF IN OPPOSITION
in the above-entitled case were mailed, first class postage prepaid to:
Office of the Federal Public Defender
Attn: Mark R. Drozdowski
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, CA 90012-4202
I further certify that all parties required to be served have been served.

RANDALL D. EINHORN, Deputy Attorney General
Office of the Attorney General
600 West Broadway, Suite 1800
San Diego, CA 92101
P.O. Box 85266
San Diego, CA 92186-5266
Telephone: (619) 738-9231
Counsel for Respondent
RDE:JB
SD2021801028
82962395.docx

